MEMORANDUM FOR:                RAYMOND J. UHALDE
                               Deputy Assistant Secretary
                               for Employment and Training


FROM:                          JOHN J. GETEK
                               Assistant Inspector General
                                for Audit


SUBJECT:                       National Office Job Corps Procurements
                               Letter Report No. 09-01-203-03-370

The Office of Inspector General (OIG) audited the system used by the National Office of
Job Corps (OJC) to procure goods and services during Fiscal Year (FY) 2000.

Our objective was to ascertain whether the procurement system performed as designed,
and resulted in the fair and competitive acquisition of goods and services for the Job
Corps program. The OJC relies on the Employment and Training Administration’s (ETA)
Division of Contract Services (DCS) to manage the procurement process.

During the period of October 1, 1999 to September 30, 2000, DCS contracting officers
awarded 86 contracts for Job Corps. They obligated $75,370,690 to purchase land and
services to enhance program operations, to improve center facilities, and to assist
students.

We are pleased to report our tests of 25 statistically sampled contracts found no problems.
Specifically:

   •   DCS personnel ensured DOL contracting procedures were followed;

   •   purchases were made in a fair, competitive, and impartial manner as required by
       the Federal Acquisition Regulations (FAR); and

   •   goods and services purchased were necessary for the operation of the Job Corps
       program.




U.S. Department of Labor - Office of Inspector General
                    INTRODUCTION AND BACKGROUND


 The Department of Labor (DOL), ETA, Office of Job Corps is responsible for
 administering the Job Corps program throughout the country. Currently, the program is
 authorized under Title I, Subtitle C of the Workforce Investment Act (WIA) of 1998.

 The Job Corps program operates 119 centers in 46 states, the District of Columbia,
 and Puerto Rico. Each year the program serves more than 65,000 students at an
 annual cost of more than $1 billion.

 Regionally, Job Corps Directors procure the services of private-for-profit management
 companies, nonprofit organizations, or other governmental agencies, such as the
 Departments of Interior and Agriculture, to operate the 119 centers. Nationally, the OJC
 procures national labor union training, student pay, and property management services,
 program studies, and major center construction work.

 The OJC relies upon contracting officers in the Office of the Assistant Secretary for
 Administration and Management (OASAM) and ETA’s DCS to obtain all needed goods
 and services. Under 48 CFR Chapter 29, the DCS is responsible for all Job Corps
 procurement except for Automated Data Processing (ADP) goods and services which
 must be purchased through OASAM. During our period of review, all procurement
 actions were awarded by DCS.


               OBJECTIVE, SCOPE, AND METHODOLOGY

 Our audit objective was to determine whether the Job Corps procurement system is
 performing as designed and is resulting in fair and competitive procurement of
 necessary goods and/or services.

 Audit work was conducted in accordance with Government Auditing Standards issued
 by the Comptroller General of the United States. We applied procedures in accordance
 with performance audit fieldwork standards. Our tests were designed to evaluate
 procurement activity at the OJC. We did not evaluate regionally procured goods and
 services.




U.S. Department of Labor - Office of Inspector General


                                                 2
We conducted audit fieldwork from November 2000 to January 2001. We evaluated 25
procurement actions selected using a stratified random sample. The variable sample was
designed to produce results with a 95 percent confidence level at a 10 percent precision
(two-sided). In total, our sample tested $53,500,323 (71 percent of the $75,370,690) of
procured obligations for FY 2000. We reviewed each procurement to ensure:

   •   adherence to DOL contracting procedures,

   •   compliance with FAR requirements, and

   •   the necessity of purchases for effective program operations.

We discussed our findings and conclusions with OJC’s Director and staff and the DCS
Contracting Officer on February 9, 2001.

                                     AUDIT RESULTS
Based on our testing, we found OJC procurement awards by the DCS during FY 2000,
were properly managed and resulted in the fair, impartial, and competitive procurement of
goods and services necessary for the effective operation of the Job Corps program.
Specifically,

   •   The DCS complied with the advertising, competition, negotiation, sealed bid,
       contract, evaluation, and/or small business set aside requirements in Parts 5, 6, 9,
       15, 16, and 36 of the Federal Acquisition Regulations (FAR) as adopted by the
       DOL in 48 CFR Chapter 29.

   •   We found no conflicts of interest, or favoritism involved in the procurement actions.

   •   Goods and services procured were necessary to the effective operation of the Job
       Corps program.

                                     *   *    *   *      *   *   *

No response to this report is required. If you have any questions, please contact Linda G.
Darby, Regional Inspector General, in San Francisco at (415) 975-4030.




U.S. Department of Labor - Office of Inspector General


                                                  3
